CERTIFICATE OF SERVICE
No, 19-259

MARON PICTURES LTD.,

Petitioner,
v.

SAM EIGEN et al.,
Respondents,

I, Iulia Iacob, am over the age of 18 and am resident in the
County of Cork, Ireland. My address is 8 Mercier Park, Curragh Road,
Turners Cross, Cork, Ireland.

I certify that on October 15, 2019, I placed three (3) copies of the
following documents as described below into an UPS Express envelope
addressed to the parties required to be served in this action as
addressed below and sent the UPS envelope via UPS Express, tracking
no.: 1ZY0061 0497361528

REPLY BRIEF FOR PETITIONER;
CERTIFICATE OF COMPLIANCE;
CERTIFICATE OF SERVICE

Richard Charnley Attorneys for

(State Bar No. 70430) Sam igen; Mainsail LLC;
Charnley Rian LLP., Shoreline Ent. Inc.

12121 Wilshire Blvd., STE. 600, Defendants and Respondents
Los Angeles,

CA 90025

Tel. + 1310 321 4300

(Page 1 of 2)
Annie Rian Attorneys for

(State Bar No. 260960) Sam Eigen; Mainsail LLC;
Charnley Rian LLP., Shoreline Ent. Inc.

12121 Wilshire Blvd., STE. 600, Defendants and Respondents
Los Angeles,

CA 90025

Tel. +1 310 321 4300

I declare under penalty of perjury under the laws of the United States
of America that the foregoing is true and correct.

Executed on Octoher 15, 2019 |

Tulia Iacob

(Page 2 of 2)
